The Honorable Darrell E. Issa
Chairman Committee on Oversight and Government Reform
U.S. House of Representatives
2157 Rayburn House Office Building
Washington, D.C. 20515-6143
Page 6 of 12

construed to impair or otherwise affect authority granted by law to an agency.” Id. §§ 4(a), 4(b). We
interpret these provisions to mean that the executive order is subordinate to the express language of the
Federal Credit Union Act (FCUA) which sets forth the NCUA’s powers and authorities as Conservator. 10

         Discussion

Section 1 of E.O. 13433 states that it is intended to address the provision of legal services “to or on behalf
of the United States.” Id. § 1. Further, sections 4(a) and (b) provide, respectively, that the E.O. must be
“implemented consistent with applicable law” and that it shall not be construed “to impair or otherwise
affect . . . authority granted by law to an agency or the head thereof.” Id. §§ 4(a), 4(b). We believe that
(1) when NCUA entered into contracts for legal services in its capacity as Conservator of USC and
WesCorp, the legal services rendered were not “to or on behalf of the United States;” and (2) the
Executive Order, by its own terms, is subordinate to NCUA’s existing powers and authorities under the
FCUA.

         A. The NCUA as Conservator or Liquidating Agent

When a credit union fails or encounters financial distress, the FCUA permits the NCUA to act as
Conservator or Liquidating Agent of the failed institution. The Board, as Conservator or Liquidating
Agent, takes over the day-to-day operations and, by operation of law, succeeds “[t]o . . . all rights, titles,
powers, and privileges of the credit union, and of any member, accountholder, officer, or director of such
credit union with respect to the credit union and the assets of the credit union.” 12 U.S.C.
§ 1787(b)(2)(A)(i). The purpose of the Conservator or Liquidating Agent is to restore the credit union to
fiscal feasibility or to liquidate and distribute its assets, respectively. The statute goes on to enumerate the
Board’s broad powers as Conservator or Liquidating Agent, including the authority to “make contracts.”
12 U.S.C. § 1789(a)(1). Overall, the FCUA makes clear that when the NCUA Board takes over a credit
union as Conservator or Liquidating Agent, it obtains the rights and powers of the credit union; it may
take over the assets and operation of the insured institution to conduct all of its business; and, in effect, it
assumes the legal status of the entity.

Likewise, when the FDIC takes over as conservator or receiver for a failed bank, it obtains the rights and
powers of the bank’s shareholders, officers, and directors. See 12 U.S.C. § 1821(d)(2)(A). Indeed, the
Supreme Court has held that the FDIC, in its role as conservator or receiver is placed “in the shoes of the
insolvent” entity. O’Melveny, 512 U.S. at 86-87 (examining 12 U.S.C. § 1821(d)(A) & (B)). Other
courts have also held, for example, that a claim against FDIC as receiver is “a claim against the
depository institution for which the FDIC is receiver.” Am. Nat’l Ins. Co. v. FDIC, 642 F.3d 1137, 1144
(D.C. Cir. 2011). Further, when acting as receiver, FDIC does not pursue the interests of the
Government. Atherton v. FDIC, 519 U.S. 213, 225 (1997). Courts have similarly held that FDIC as

10
   Additionally, we are aware that the NCUA has also taken the position that the E.O. does not apply to NCUA because the
agency does not receive appropriated funds for its insurance or regulatory functions. The NCUA bases its position on the
apparent intent of the E.O. which, as its title eponymously asserts, is to protect American taxpayers from appropriated agencies’
payment of contingency fees. (Emphasis added.) We agree with this position. That is, the stated purpose of the contingency fee
ban is to protect “taxpayers,” but the insurance fund that the NCUA administers, and into which any recoveries from the NCUA’s
litigation would be placed, receives no taxpayer funds. Rather, it is financed by the credit unions themselves. Nevertheless, we
believe that the more relevant discussion here focuses on the fact that the E.O. does not apply to NCUA when acting as
Conservator or Liquidating Agent because: (1) the NCUA entered into the contingency agreements at issue in its capacity as
Conservator of several failed credit unions; and (2) the E.O., by its own terms, is subordinate to the FCUA.
The Honorable Darrell E. Issa
Chairman Committee on Oversight and Government Reform
U.S. House of Representatives
2157 Rayburn House Office Building
Washington, D.C. 20515-6143
Page 7 of 12

conservator was not acting for the United States. See, e.g., Ameristar Fin. Servicing Co. LLC v. United
States, 75 Fed. Cl. 807, 811 (2007). Moreover, one court recently compared the Federal Housing Finance
Agency (FHFA) to the FDIC, holding that when the FHFA serves as a conservator of Fannie Mae, it
“step[s] into the shoes of the private corporation.” Herron v. Fannie Mae, 857 F.Supp.2d 87, 94 (D.D.C.
2012).

In O’Melveny, the Supreme Court interpreted the Financial Institutions Reform, Recovery and
Enforcement Act of 1989 (FIRREA), 12 U.S.C. §§ 1461 et seq., the statute applicable to FDIC. There,
the Court held that the language of 12 U.S.C. § 1821(d)(2)(A)(i), stating that the FDIC as receiver shall
“‘succeed to all rights, titles, powers, and privileges of the insured depository institution’ . . . appears to
indicate that the FDIC as receiver ‘steps into the shoes’ of the failed S&L, obtaining the rights ‘of the
insured depository institution’ that existed prior to receivership.” 512 U.S. at 86 (citations omitted;
emphasis in original). The statutory language of the FCUA, regarding the powers and rights of the
NCUA Board acting as Conservator or Liquidating Agent, is virtually identical to the FDIC’s. Under its
own statute, when the NCUA steps in as Conservator or Liquidating Agent, it immediately succeeds to all
rights, powers, and privileges of the insured credit union to conduct all of the entity’s business. 12 U.S.C.
§ 1787(b)(2). Thus, like the FDIC when it serves as a conservator or receiver of a private entity, the
NCUA as Conservator or Liquidating Agent “step[s] into the shoes” of the distressed or failed credit
union. In such circumstances, the NCUA is no longer a government actor but, rather, assumes the
identity of the credit union, a private entity. See also, Herron at 857 F.Supp.2d at 94 (citing, among other
cases, United States v. Beszborn, 21 F.3d 62 (5th Cir. 1994).

Consequently, we conclude that when NCUA serves as Conservator or Liquidating Agent it is no longer
acting as a Federal agency but rather, as a private entity. Thus, in its conservatorship or liquidator
capacity, the NCUA is not subject to a variety of rules normally applicable to government agencies. We
view this conclusion as, in turn, leading to the conclusion that when NCUA is operating a credit union as
Conservator, it can contract for outside counsel in any way that the credit union can. We considered
further whether there are any limitations on the rights and powers of federally insured credit unions to
retain outside counsel under contingency fee contracts and found no such limitations.

        B. The FCUA

As discussed above, the FCUA accords the NCUA Board broad powers and authorities when it is acting
as Conservator or Liquidating Agent of a failed credit union. Specifically, as mentioned above, the
statute provides that “[t]he Board shall, as conservator or liquidating agent, and by operation of law,
succeed to . . . all rights, titles, powers, and privileges of the credit union, and of any member,
accountholder, officer, or director, of such credit union with respect to the credit union and the assets of
the credit union.” Id. § 1787(b)(2) (A)(i). Among the other powers the FCUA accords the NCUA when
it is acting as Conservator or Liquidating Agent are the authority to (1) operate the credit union with all
the powers of the members or shareholders; (2) collect all obligations and money due the credit union;
(3) perform all functions of the credit union in the name of the credit union; and (4) preserve and conserve
the assets and property of the credit union. Id. § 1787(b)(2)(B). Significantly, under 12 U.S.C.
§ 1789(a)(1), the NCUA Board is also authorized, in carrying out its rights and duties as Conservator and
Liquidating Agent, to “make contracts.”

The E.O. expressly provides that it shall not be interpreted “to impair or otherwise affect authority granted
by law to an agency.” E.O. at § 4(b). Thus, the order, by its own terms, acknowledges that it is ultimately
The Honorable Darrell E. Issa
Chairman Committee on Oversight and Government Reform
U.S. House of Representatives
2157 Rayburn House Office Building
Washington, D.C. 20515-6143
Page 11 of 12

informed us that while the former General Counsel executed the LSA on September 1, 2009—one week
after she assumed the Chairmanship—she was neither involved in nor otherwise privy to the prior
briefings by agency counsel regarding either the retention of the two firms to litigate the cases or the
decision to do so on a contingency fee basis.

         FHFA

Like NCUA, the FHFA concluded that it [the FHFA] is not bound by the E.O. because it is a conservator.
Nevertheless, it acknowledged the prevailing government policy under the E.O. that outside counsel
should be retained on an hourly basis. Indeed, the FHFA informed us that when it was looking to engage
outside law firms for its own MBS lawsuits, 12 public concern about contingency fees was on the FHFA’s
radar screen, as a result of the recent mass settlement between BNY Mellon and Bank of America, led by
Kathy Patrick of the Houston-based law firm, Gibbs & Bruns. 13 The FHFA explained further that its
decision to retain outside counsel on an hourly basis for the MBS lawsuits relied in large part on the
agency’s ability to monitor the law firms retained. In particular, the FHFA was able to assemble a fee
review group comprised of a contingent of attorneys from the FHFA, Fannie Mae, and Freddie Mac. The
reviewers routinely scrutinize—and, as necessary, challenge—fees charged. Indeed, the FHFA indicated
that it relies upon attorneys from Fannie and Freddie to conduct the lion’s share of the fee review work. It
emphasized that, but for the Fannie and Freddie attorney reviewers, and an outside fee-oversight firm it
has retained, the FHFA would not have had the necessary legal resources to monitor a fee based
arrangement to the extent necessary for such enormous and complex litigation. The FHFA also indicated
that at the time it entered into the legal agreements with outside counsel, it was in a strong bargaining
position to negotiate lower billable hour rates. Overall, the FHFA stated, based on the size of the
recoveries at stake, its ability to negotiate fixed and/or lower rates, as well as the ability of the fee review
panel to control litigation costs (i.e., monitor the law firms retained), the FHFA determined that it was
well situated to enter into a fee based arrangement.

         FDIC

The FDIC explained to us that in June 2007 its Legal Opinions Unit looked at whether the E.O. applied to
the FDIC and concluded that it did not. While it declined to share a copy of that legal opinion with us, an
FDIC attorney paraphrased the opinion, explaining that the FDIC has independent litigation authority and
the E.O., by interfering with the way FDIC can litigate under its own statute, would in effect impair that
authority. He went on to state that the E.O., by its own terms, provides that it “shall not be construed to
impair or otherwise affect authority granted to an agency.” The attorney we spoke with further declined
to confirm or deny that it was the FDIC’s current policy to avoid contingency fee arrangements.

Summary

To summarize, we believe that the contingency fee arrangement the Conservator entered into with the
firms was a cost effective arrangement, was reasonable in light of the uniqueness of the litigation, and did
not result in member credit unions paying, in effect, unnecessarily high legal fees. Moreover, we believe

12
   The FHFA, in its capacity as Conservator of Fannie Mae and Freddie Mac, has filed claims against 18 of the largest issuers of
MBS in the United States.
13
   Under the terms of the legal services (contingent fee based) agreement, Bank of America paid $85 million in legal fees to
Gibbs & Bruns.
